                                     CLOSEOUT FOR M97030011

       This case came to OIG on March 20, 1997, when I                         a program officer
in NSF's Division of, -                            brought us a letter and supporting materials
from  1                (the first complainant) concerning a scientist (the scientist) at the
                          (the university). The scientist is one of 16 co-PIS on an award that


-u
supported the purchase of equipment that could be useful to a variety of researchers at the
university. The award, *entitled"

         (the subject) is the PI on the equipment award. We subsequently were contacted by
another researcher at the university,                    (the second complainant), who echoed
the first complainant's allegations.

       It was alleged that the equipment purchased under the award was not available to the
co-PIS and other researchers at the university. OIG learned that the subject had informed the
university that the equipment was not fully operative. OIG concluded that the subject's failure
to make the equipment fully operative and widely available to his colleagues could compromise
achievement of the award's purposes and was therefore a source of concern for NSF. Because
NSF program managers are responsible for monitoring progress under their awards, OIG
decided that this concern was most appropriately dealt with as a program management matter,
and we referred it to the program officer responsible for managing the award.

        It was also alleged that the scientist had been the victim of mistreatment by the subject
and others at the university because the scientist had complained to the university about a
number of issues, including access to the equipment. OIG learned that the subject and the
scientist had a history of conflict that significantly predated the scientist's complaints
concerning the NSF-funded equipment. This history included alleged actions by the the subject
against the scientist that did not involve NSF and that preceded the scientist's complaints about
the NSF-funded equipment. However, neither complainant provided any evidence suggesting
that any actions by the subject or anyone else were prompted by the fact that the scientist had
made complaints concerning the NSF-funded equipment. Accordingly, because there is no
evidence here of the existence of facts that might constitute misconduct in science under NSF's
definition, this misconduct in science inquiry is closed.'

cc:     AIG-0, IG
I
         The complainants also expressed concerns about possible financial improprieties in connection with
income derived from fees charged for the use of the equipment purchased under the NSF award. On its face, this
allegation does not fall under NSF's defition of misconduct in science and is not part of this misconduct in
science inquiry. OIG will evaluate whether this allegation warrants further inquiry; in the course of gathering
information regarding this allegation, if OIG learns of any evidence that might constitute misconduct in science,
such evidence will be developed in an appropriate manner.


                                             page 1 of 1                                     M97- 11
